Appendix A

FILED
COURT OF APPEALS
JAN 14 2019
CATHY PROSSER WILCOX
CLERK
HANCOCK COUNTY, OHIO

COURT OF APPEALS OF OHIO,
THIRD APPELLATE DISTRICT
Susan Pearsall, Plaintiff-Appellant,
v.
Thomas C. Guernsey, DDS, Et Al.,
Defendants-Appellees.
Case No. 05-18-14
Date of entry: January 14, 2019
JUDGMENT ENTRY
it it it

App. 1

This appeal, having been placed on the regular
calendar, is sua sponte being assigned and
considered on the accelerated calendar pursuant to
App.R. 11.1(E) and Loc. R. 12. This decision is,
therefore, rendered by summary judgment entry,
which is controlling only as between the parties to
this action and not subject to publication or citation
as legal authority under Rule 3 of the Ohio Supreme
Court Rules for the Reporting of Decisions.
Plaintiff-appellant, Susan Pearsall
("Pearsall"), pro se, appeals the April 4 and May 14,
2018 judgments of the Hancock County Court of
Common Pleas enforcing a settlement agreement
and dismissing her complaint against defendantappellee, Thomas C. Guernsey, DDS ("Guernsey").
For the reasons that follow, we affirm in part and
reverse in part.
The facts relevant to the resolution of this
appeal are as follows. This case stems from a
medical-malpractice complaint filed on February 18,
2016 against Guernsey and Derik E. Utz, DDS
("Utz") (collectively "defendant"). (Doc. No. l).1
Defendants filed their answer on April 25, 2016 after
the trial court granted them an extension of time to

1 Pearsall filed her original complaint on October 23, 2014!
however, that complaint was dismissed without prejudice by
the trial court on February 25, 2015 because Pearsall failed to
file an affidavit of merit. (Doc. Nos. 1, 54).

App. 2

file an answer. (Doc. Nos. 14, 17).2 The trial court
dismissed Pearsall's complaint against Utz on
September 20, 2016, and this court affirmed the trial
court's decision on February 27, 2017. (*SeeDoc. Nos.
39, 43. 46, 54, 57); Pearsall v. Guernsey, 3d Dist.
Hancock No. 5-16-25, 2017-Ohio-681, f21.
After the parties exchanged a number of pre­
trial motions, the matter proceeded to jury trial on
January 29-30, 2018. CSeeDoc. No. 305). Prior to the
end of trial, the parties reached a settlement, the
agreement was read into the record, and the trial
court discharged the jury. (Jan. 30, 2018 Tr. at 4, 1415, 19-20).
On February 27, 2018, Guernsey filed a
motion to enforce the settlement agreement. (Doc.
No. 307). Pearsall filed memoranda in opposition to
Guernsey's motion to enforce the settlement
agreement on March 15, 2018. (Doc. Nos. 310, 311).
The trial court conducted a hearing the motion, and
on April 5, 2018 granted Guernsey's motion to
enforce the settlement agreement. (Doc. No. 314);
(Mar. 22, 2018 Tr. at 3-4).
In its order, the trial court ordered Pearsall to
"sign the requested release" within 30 days of the
trial court's order and ordered Guernsey "to tender
the check in the agreed upon amount to [Pearsall]
and file a dismissal entry." (Doc. No. 314). In the
alternative, the trial court ordered that (l) if Pearsall
2 Guernsey filed a motion for leave to file instanter an amended
answer on January 22, 2018, which the trial court granted on
January 30, 2018. (Doc. Nos. 270, 301).

App. 3

"fails to appear k k k by the deadline and/or refuses
to sign the release the Court shall sign an order
reflecting the agreement and order that this case will
be dismissed with prejudice" and (2) if Pearsall "fails
to sign the release and/or fails to request the
settlement check within the thirty (30) day time
period k k k , she will be deemed to have forfeited her
right to the award." {Id).
Notwithstanding the trial court's order, on
April 30, 2018, Pearsall filed a motion to proceed to
trial by jury alleging that Guernsey "is dissatisfied
with the original settlement and demands [Pearsall]
to sign a second settlement to supersede the original
one." (Doc. No. 315). On May 1, 2018, Guernsey filed
a memorandum in opposition to Pearsall's motion.
(Doc. No. 316).
On May 14, 2018, in accordance with its April
4, 2018 order, the trial court issued an order
reflecting the terms of the settlement agreement and
dismissed Pearsall's complaint against Guernsey
with prejudice. (Doc. Nos. 318, 319).
On June 11, 2018, Pearsall filed her notice of
appeal of the trial court's April 4 and May 14, 2018
orders enforcing the settlement agreement and
dismissing her complaint, respectively. (Doc. No.
323). She raises one assignment of error for our
review.
Assignment of Error
The trial court erred in determining that an
enforceable contract exists.
App. 4

In her assignment of error, Pearsall argues
that the trial court erred in concluding that the
parties executed an enforceable contract.
Specifically, Pearsall contends that the trial court
erred by concluding that there was a meeting of the
minds as to the essential terms of the settlement
agreement. That is, Pearsall argues that "[t]he
parties dispute whether there is a contractual duty of
[Pearsall] to sign something in a written format as a
condition precedent to [Guernsey's] contractual duty
to pay [Pearsall]." (Appellant's Brief at 4).
Notwithstanding Pearsall's caption of her
assignment of error and summary of her argument
on appeal, to properly resolve Pearsall's appeal, we
must address whether the trial court erred by
dismissing Pearsall's complaint with prejudice after
she failed to comply with the trial court's order
enforcing the settlement agreement. Inherent in that
analysis is whether the trial court properly enforced
the settlement agreement.
Civ.R. 41(B) governs involuntary dismissals of
civil actions. Under Civ.R. 41(B)(1), "Where the
plaintiff fails to prosecute, or comply with these rules
or any court order, the court •k ic it on its own motion
may, after notice to the plaintiffs counsel, dismiss an
action or claim." "A dismissal under division (B) of
this rule and any dismissal not provided for in this
rule •k k k operates as an adjudication upon the
merits * *
Civ.R. 41(B)(3).
"[T]he notice requirement of Civ.R. 41(B)(1)
applies to all dismissals with prejudice." (Emphasis
App. 5

sic.) Ohio Furniture Co. v. Mindala, 22 Ohio St.3d
99, 101 (1986). Under Civ.R. 41(B)(1), a party has
proper notice of an impending dismissal with
prejudice when the trial court informs that party
that dismissal is a possibility and has had a
reasonable opportunity to defend against that
dismissal. Quonset Hut, Inc. v. Ford Motor Co., 80
Ohio St.3d 46 (1997), syllabus.
"Judicial discretion must be carefully--and
cautiously--exercised before this court will uphold an
outright dismissal of a case on purely procedural
grounds." DeHart v. Aetna Life Ins. Co., 69 Ohio
St.2d 189, 192 (1982). "Despite the heightened
scrutiny to which dismissals with prejudice are
subject, this court will not hesitate to affirm the
dismissal of an action when "the conduct of a party is
so negligent, irresponsible, contumacious or dilatory
as to provide substantial grounds for a dismissal
with prejudice for a failure to prosecute or obey a
court order."" Quonset Hut at 48, quoting Tokles &
Son, Inc. v. Midwestern Indemn. Co., 65 Ohio St.3d
621, 632 (1992), quoting Schreiner v. Karson, 52
Ohio App.2d 219, 223 (9th Dist.1977).
We review an involuntary dismissal with
prejudice for an abuse of discretion. Pembaur v. Leis,
1 Ohio St.3d 89, 91 (1982). An abuse of discretion
suggests the trial court's decision is unreasonable,
arbitrary, or unconscionable. Blakemore v.
Blakemore, 5 Ohio St.3d 217, 219 (1983).
Analysis
App. 6

/

The trial court did not abuse its discretion by
dismissing Pearsall's complaint because Pearsall
negligently, irresponsibly, contumaciously, or
dilatorily failed to comply with the trial court's order
enforcing the settlement agreement. Although
Pearsall's argument that the trial court erred by
enforcing the settlement agreement does not warrant
reversal of the trial court's decision dismissing her
case, we conclude the trial court did not construct a
reasonable journal entry outlining the parties'
settlement agreement.
"A settlement agreement is viewed as a
particularized form of a contract." Brotherwood v.
Gonzalez, 3d Dist. Mercer No. 10-06-33, 2007-Ohio3340, Tfll, citing Noroski v. Fallet, 2 Ohio St. 3d 77,
79 (1982). "It is a contract designed to terminate a
claim by preventing or ending litigation, and such
agreements are valid and enforceable by either
party." Id., citing Continental W. Condominium Unit
Owners Assn. v. Howard E. Ferguson, Inc., 74 Ohio
St.3d 501, 502 (1996). "To be enforceable as a binding
contract, a settlement agreement requires no more
formality than any other type of contract. It need not
necessarily be signed, as even oral settlement
agreements may be enforceable." B. W. Rogers Co. v.
Wells Bros., 3d Dist. Shelby No. 17-11-25, 2012-Ohio750, 27, citing Kostelnik v. Helper, 96 Ohio St.3d 1,
2002-Ohio-2985, ^15. "Therefore, the interpretation
of a settlement agreement is governed by the law of
contracts." Brotherwood at til, citing Chirchiglia v.
Ohio Bur. of Workers' Comp., 138 Ohio App.3d 676,
679 (7th Dist.2000).
App. 7

"The standard of review to be applied to a
ruling on a motion to enforce a settlement agreement
depends primarily on the question presented." Kaple
v. Benchmark Materials, 3d Dist. Seneca No. 13-0360, 2004-0hio-2620, f 4. "Generally, if a motion to
enforce a settlement agreement surrounds an
agreement of undisputed terms, the issue is one of
contract law; thus the standard of review is whether
the trial court erred as a matter of law." Moore v.
Johnson Industries Corp., 10th Dist. Franklin Nos.
96APE11-1579, 96APE12-1638, and 96 APE12-1703,
1997 WL 771015, *12 (Dec. 11, 1997), citing
Continental W. Condominium Unit Owners Assn, at
502. See also Kaple at f 4 ("If the dispute is a
question of law, an appellate court must review the
decision de novo to determine whether the trial
court's decision to enforce the settlement agreement
is based upon an erroneous standard or a
misconstruction of the law."), citing Continental W.
Condominium Unit Owners Assn, at 502. "De novo
review requires us to conduct an independent review
of the record without deference to the trial court's
decision." Matrix Technologies, Inc. v. Kuss Corp.,
6th Dist. Lucas No. L-07-1301, 2008-0hio-1301, 111,
citing Brown v. Cty. Commrs. ofScioto Cty., 87 Ohio
App.3d 704, 711 (4th Dist. 1993).
"However, if the agreement's terms are in
dispute, the issue of whether the trial judge should
enforce the alleged settlement agreement is reviewed
under an abuse of discretion standard." Moore at
*12, citing Rulli v. Fan Co., 79 Ohio St.3d 374, 376
(1997). A trial court does not abuse its discretion by
App. 8

enforcing settlement agreements "where the record
contains some competent, credible evidence to
support its findings regarding the settlement.'"
Bankers Trust Co. v. Wright, 6th Dist. Fulton No. F09-009, 2010-0hio-1697, 15, quoting Mentor v.
Lagoons Point Land Co., 11th Dist. Lake No. 98L190, 1999 WL 1313674, *4 (Dec. 17, 1999). See also
Kaple at If 4 ("If the question is an evidentiary one,
this Court will not overturn the trial courts finding if
there was sufficient evidence to support such
finding."), citing Chirchiglia at 679. "Where the
meaning of terms of a settlement agreement is
disputed, or where there is a dispute that contests
the existence of a settlement agreement, a trial court
must conduct an evidentiary hearing prior to
entering judgment." Rulli at syllabus.
Here, the parties dispute whether they orally
executed a valid and enforceable settlement
agreement. In particular, Pearsall argues that the
parties did not execute a valid and enforceable
settlement agreement because there is no competent,
credible evidence of a meeting of the minds as to the
essential terms of the settlement agreement. We
reject this argument.
As a matter of law, the parties executed a
binding contract when they entered into an oral
settlement agreement in the presence of the court.
"Where the parties in an action -k k k voluntarily
enter into an oral settlement agreement in the
presence of the court, such agreement constitutes a
binding contract." Spercel v. Sterling Industries, Inc.,
31 Ohio St.2d 336 (1972), paragraph one of the
App. 9

syllabus. Accord Triozzi-Hartman v. Hartman, 11th
Dist. Geauga No. 2006-G-2701, 2007-0hio-5781, 19
(Ordinarily, an in-court settlement binds the parties,
even if they do not reduce it to writing."). Moreover,
the parties preserved the settlement agreement by
reading the essential terms of the settlement
agreement into the record. See Ruffian, L.L. C. v.
Hayes, 10th Dist. Franklin No. 09AP-948, 2011Ohio-831, 117 ('"An agreement is enforceable if it
encompasses the essential elements of the bargain."),
quoting Mr. Mark Corp. v. Rush, Inc., 11 Ohio
App.3d 167, 169 (8th Dist.1983), citing Reck v. Daley,
72 Ohio App. 307, 315-317 (1st Dist. 1943). See also
Alligood v. Procter & Gamble Co., 72 Ohio App.3d
309, 311 (1st Dist.1991) (stating that the essential
terms of a contract include "the identity of the
parties to be bound, the subject matter of the
contract, consideration, a quantity term, and a price
term").
Instead, the disagreement between the parties
in this case focuses on the meaning of the essential
terms of the contract”that is, the parties dispute the
terms of their agreement that are necessary to
effectuate the conclusion of the matter. See Allen v.
Bennett, 9th Dist. Summit No. 23570, 2007-Ohio5411, 114 (noting that the parties' dispute "did not
concern the existence of any material term, but
instead focused on the meaning of one of those
terms"); Murra v. Farrauto, 10th Dist. Franklin No.
16AP-347, 2017-Ohio-842,118 (noting that lessessential terms of an agreement include those terms
that are "necessary to effectuate the conclusion of the
App. 10

matter"). Indeed, "[a] dispute over a term's meaning
does not necessarily equate to an omission of an
essential term that renders an agreement
unenforceable." Ruffian at fl8, citing Allen at 14.
This is true because "[a] 11 agreements have
some degree of indefiniteness and some degree
of uncertainty. In spite of its defects, language
renders a practical service. In spite of
ignorance as to the language they speak and
write, with resulting error and
misunderstanding, people must be held to the
promises they make."
Id., quoting Kostelnik, 96 Ohio St.3d 1, 2002-Ohio2985, at Tf 17, quoting 1 Corbin & Perillo, Corbin on
Contracts, Section 4.1, at 530 (Rev.Ed. 1993). Thus,
we conclude that the trial court did not err by
concluding that the parties entered into a valid and
enforceable settlement agreement. Compare Murra
at If 18 (concluding that the parties executed a
binding settlement agreement because it was
reached in the presence of the court and "[t]he basic
economic provisions of the terms of the settlement
were stated on the record").
Nevertheless, Pearsall maintains that the trial
court erred by enforcing the settlement agreement.
Specifically, she disputes the trial court's decision to
fashion the less-essential terms of the settlement
agreement to effectuate a fair and just result in this
case. "If less essential terms are omitted from an
agreement, they may be resolved by 'later agreement
App. 11

or judicial resolution.'" Ruffian at ^[17, quoting Mr.
Mark Corp. at 169. See also Tabbaa v. Koglman, 149
Ohio App.3d 373, 2002-Ohio-5328, ^33 (8th Dist.)
("'Short of laboriously hammering out a handwritten
agreement in court the preferred process is to agree
to settle on condition that the language (rather than
the terms themselves) can be agreed to in the near
future. •k k * In the event that a party fails to make a
good faith attempt to agree on the language the trial
judge can (after hearing) determine the terms and
construct a reasonable journal entry outlining the
agreement.'"), quoting Tepper v. Heck, 8th Dist.
Cuyahoga No. 61061, 1992 WL 369283, * (Dec. 10,
1992). '"[I]f the court can determine that the parties
intended to be bound, it may fashion those less
essential terms that were omitted in order to reach a
fair and just result.'" Ruffian at ^17, quoting
Imbrogno v. MIMRx.COM, Inc., 10th Dist. Franklin
No. 03AP-345, 2003*0hio-6108, f 14, quoting Gurich
v. Janson, 11th Dist. Ashtabula No. 99-A-0006, 2000
WL 173354, *4 (Nov. 17, 2000), and citing Shaffer v.
Triple Diamond Excavating, 11th Dist. Trumball
No.20090-T-0104, 2010-0hio-3808, ^22, and Aligood,
72 Ohio App.3d at 311, citing Litsinger Sign Co. v.
Am. Sign Co., 11 Ohio St.2d 1, 14 (1967).
Since, the parties disputed what was required
of Pearsall under the settlement agreement, the trial
court conducted an evidentiary hearing prior to
entering a judgment. See Allen at f 16; Roth v. Roth,
8th Dist. Cuyahoga No. 89141, 2008-0hkr927, Tf4647 (noting that a trial court should hold a hearing
when a factual dispute arises as to the parties' inApp. 12

court agreement). Prior to the hearing, Guernsey
filed a proposed settlement "agreement and order."
(Doc. No. 312). Ultimately, after reviewing the
transcript from the in-court settlement, the trial
court concluded that "it is entirely reasonable for
[Guernsey] to expect that a release be part of the
bargain." (Doc. No. 314). The trial court further
concluded that Guernsey's proposed settlement
agreement and order "does not conflict with the
terms read into the record"! rather, "the requested
language appears reasonable and is necessary to
effectuate the agreement and protect both parties."
(Id). The trial court further ordered the following:
1) Within thirty (30) days, [Pearsall] is
directed to appear at counsel's office at a date
and time agreeable to both parties, and sign
the requested release.
2) If the release is properly executed
[Guernsey] is directed to tender the check in
the agreed amount to [Pearsall] and file a
dismissal entry.
3) If [Pearsall] fails to appear in counsel's
office by the deadline and/or refuses to sign
the release the Court shall sign an order
reflecting the agreement and order that this
case will be dismissed with prejudice. (See
Agreement and Order filed under seal by
[Guernsey] on March 23, 2018.) [Guernsey's]
counsel to retain the settlement check in the
agreed amount for a period of thirty (30) days.
4) If [Pearsall] fails to sign the release and/or
fails to request the settlement check within
App. 13

the thirty (30) day time period mentioned
above, she will be deemed to have forfeited her
right to the award. In either circumstance this
case will be dismissed with prejudice.
(Doc. No. 314).
Pearsall did not comply with the trial court's
order requiring her to sign the release and to request
the settlement check within the 30-day time period.
Since Pearsall failed to comply with the trial court's
order, the trial court adopted Guernsey's proposed
agreement and dismissed Pearsall's complaint with
prejudice. See Gulling v. Gulling, 70 Ohio App.3d
410, 412 (9th Dist.1990) ("An in-court settlement
agreement may be adopted by the court, incorporated
into judgment entry, and enforced even in the
absence of written approval by one party."), citing
Holland v. Holland, 25 Ohio App.2d 98, 101-102
(10th Dist. 1970).
However, although we ultimately conclude
that the trial court was correct in enforcing the
settlement agreement, we conclude that the trial
court overstepped the bounds of its discretion by
adopting Guernsey's proposed agreement--namely,
the provision requiring Pearsall to sign a release and
to forfeit her right to the settlement check if she
failed to sign the release. See also Hundley v.
Hundley, 5th Dist. Holmes No. 16CA002, 2016*Ohio4618, 122 (applying an abuse-of-discretion standard
to a trial court's adoption of a proposed entry
reflecting the parties' in-court settlement). The trial
court's order requiring Pearsall to sign a release and
to forfeit her right to the settlement check if she
App. 14

failed to sign the release does not achieve a fair and
just result. Moreover, requiring Pearsall to sign a
release is superfluous since the trial court dismissed
her complaint with prejudice. See Tower City
Properties v. Cuyahoga Cty. Bd. ofRevision, 49 Ohio
St.3d 67, 69 (1990) (stating that a dismissal with
prejudice bars the refiling of those claims under the
doctrine of res judicata).
Ultimately, we conclude that the trial court
did not abuse its discretion by dismissing Pearsall's
complaint with prejudice. The evidence in the record
reflects that Pearsall was notified that the trial court
would dismiss her case, with prejudice, should she
fail to comply with its order and that she willfully
disobeyed the trial court's order. See Justice v. Sears,
Roebuck & Co., 10th Dist. Franklin No. 91AP-676,
1992 WL 48533, *5 (Mar. 10, 1992) (noting "that
conduct demonstrating willful disobedience of a court
order or refusal to prosecute the case may justify a
Civ.R. 41(B)(1) dismissal"), citing Pembaur v. Leis, 1
Ohio St.3d 89 (1982). Indeed, "the settlement
agreement was not consummated by the parties by
reason of [Pearsall's] refusal to do so when [Guernsey
was] 'ready, willing and able.'" Dick v. Am. Motors
Sales Corp., 14 Ohio App.3d 322, 323 (1st Dist.1984).
Even without the "release" and forfeiture" provisions
of the trial court's order, Pearsall disobeyed the trial
court's order enforcing the settlement agreement by
filing a motion to proceed to trial.
Further, the record is repleat with instances
reflecting Pearsall's contumacious behavior
throughout the pendency of the case. See Sazima v.
App. 15

Chalko, 86 Ohio St.3d 151 (1999) ("In considering
dismissal under Civ.R.41(B)(1), a trial court may
properly take into account the entire history of the
litigation, including plaintiffs dilatory conduct * *
*."). Given Pearsall's conduct to frustrate the judicial
process, dismissal was certainly justified. See Isbel v.
Jack Coley Homes, Inc., 2d Dist. Montgomery No.
Civ.A. 20290, 2004-0hio-5280, TJ12 ("We find from
the record that the plaintiffs and their attorney were
given ample and timely notice that their case could
be dismissed for failure to prosecute and taking into
account the entire history of the litigation, as the
trial court did, dismissal was certainly justified on
the facts recited by the trial court and presented in
the record.").
For these reasons, we conclude that Pearsall's
actions were negligent, irresponsible, contumacious,
or dilatory and provide substantial grounds for a
dismissal with prejudice. See Clay v. Lakeview
Farms, Inc., 3d Dist. Allen No. 1-09-55, 2010-Ohio603, |24 ("Consequently, due to Clay's actions
necessitating the need for the continuance, and
Clay's purposeful absence at trial, we find his actions
to be 'negligent, irresponsible, [and] contumacious.'"),
quoting Schreiner, 52 Ohio App.2d at 223. Thus, the
trial court did not abuse its discretion by dismissing
Pearsall's complaint with prejudice. See Dick at 324325 (concluding that the trial court did not abuse its
discretion by dismissing the plaintiffs' complaint
after the plaintiffs refused to complete the
settlement).
App. 16

Notwithstanding our conclusion that the trial
court properly dismissed Pearsall's complaint, we
reverse the trial court's order adopting Guernsey's
proposed order and order the trial court to issue an
order enforcing the settlement agreement that does
not require Pearsall to sign a release and awards the
settlement check to Pearsall regardless of whether
she claims it.
Therefore, Pearsall's assignment of error is
sustained in part and overruled in part.
Accordingly, for the aforementioned reasons, it
is the order of this Court that the Judgment Entry of
the Hancock County Court of Common Pleas be, and
hereby is, affirmed in part and reversed in part.
Costs are assessed equally to Appellant and Appellee
for which judgment is hereby rendered. This cause is
remanded to the trial court for further proceedings
consistent with this judgment entry and for
execution of the judgment for costs.
It is further ordered that the Clerk of this
Court certify a copy of this judgment entry to the
trial court as the mandate prescribed by App.R.27,
and serve a copy of this judgment entry on each
party to the proceedings and note the date of service
in the docket as prescribed by App.R. 30.
s/ William R. Zimmerman
JUDGE
s/ Stephen R. Shaw
JUDGE

App. 17

s/ Vernon L. Preston
JUDGE
DATED: January 14, 2019
/jlr

App. 18

Appendix B

FILED
COURT OF APPEALS
SEP 03 2019
CATHY PROSSER WILCOX
CLERK
HANCOCK COUNTY, OHIO

COURT OF APPEALS OF OHIO,
THIRD APPELLATE DISTRICT
Susan Pearsall,
Plaintiff-Appellee / Cross-Appellant,
v.
Thomas C. Guernsey, DDS,
Defendant-Appellant / Cross-Appellee.
-andDerik E. Utz,
Defendant-Appellee.
Case No. 05-19-08
Date of entry: September 3, 2019
App. 19

JUDGMENT ENTRY
•k * *

This appeal having been placed on the regular
calendar, is sua sponte being assigned and
considered on the accelerated calendar pursuant to
App.R. ll.l(E) and Loc.R. 12. This decision is
therefore rendered by summary judgment entry,
which is only controlling as between the parties to
this action and not subject to publication or citation
as legal authority under Rule 3 of the Ohio Supreme
Court Rules for the Reporting of Decisions.
Thomas C. Guernsey, DDS ("Appellant")
brings this appeal from the February 22, 2019,
amended order of the Court of Common Pleas of
Hancock County. The entry amended the May 14,
2018, order to comply with an order of this Court.
Susan Pearsall ("Appellee") also filed a cross-appeal
from this judgment. For the reasons set forth below,
we affirm the judgment of the trial court.
This case began with a medical malpractice
complaint filed on February 18, 2016. Doc. 1. A jury
trial was held on January 29 and 30, 2018, but before
a verdict was reached, the parties reached an
agreement. Doc. 305. The agreement was read into
the record and the trial court discharged the jury.
Jan. 30, 2018 Tr. Disagreements arose during the
enforcement of the agreement and a motion was filed
with the trial court. Doc. 307. The trial court set
forth an order on April 5, 2018, which required
Appellant to issue a check and file a dismissal entry
App. 20

and Appellee to sign a release. Doc. 314. If Appellee
failed to sign the release or request the settlement
check, the trial court stated that it would dismiss the
case with prejudice and Appellee would have
forfeited her right to the award. Id. On May 14, 2018,
the trial court entered an order reflecting the terms
of the settlement agreement and dismissing the
complaint with prejudice. Doc. 318, 319.
Appellee filed a notice of appeal from the trial
court's orders. Doc. 323. She raised one assignment
of error claiming that the trial court erred in
determining that there was an enforceable contract.
The appeal was assigned case number 5-18-14. On
appeal, this Court affirmed the portion of the
judgment dismissing the complaint. However, this
Court reversed the trial court's requirements that
Appellee sign a release and allowing for the
forfeiture of the award. Instead, this court held as
followsNotwithstanding our conclusion that the trial
court properly dismissed [Appellee's]
complaint, we reverse the trial court's order
adopting [Appellant's] proposed order and
order the trial court to issue an order
enforcing the settlement agreement that does
not require [Appellee] to sign a release and
awards the settlement check to [Appellee]
regardless of whether she claims it.

App. 21

Pearsall v. Guernsey, et al., 3d Dist. Hancock No. 518-14, at 16 (Jan. 14, 2019).1 On February 22, 2019,
the trial court issued an amended order pursuant to
the order of this Court. Doc. 334. In the amended
order, the trial court ordered in pertinent part as
follows.
2. Pursuant to the agreement, [Appellant]
shall issue a check in the name of [Appellee] in
the amount of | to be held in perpetuity by
* * * counsel for [Appellant].
3. Upon reasonable notice, [Appellee] shall
have the right to retrieve the check during
regular business hours and must acknowledge
receipt of the funds in writing.
4. Pearsall shall not be required to execute a
release of all claims as consideration for such
payment.
5. The underlying action remains dismissed
with prejudice.
Id. On March 14, 2019, Appellant filed his notice of
appeal. Doc. 335. Appellant raises the following
assignment of error on appeal.

1 Appellee appealed the judgment of this Court to the Ohio
Supreme Court. The Ohio Supreme Court declined to hear the
case. Pearsall v. Guernsey, 2019-Ohio-1759.

App. 22

The trial court erred in issuing its order
confirming the settlement of this case without
including any of the provisions of its previous
Agreement and Order including two specific
provisions, which were read into the record
and agreed upon in open court at the time the
agreement was announced.
On March 25, 2019, Appellee filed notice of a cross­
appeal. Doc. 342. Appellee raised the following
assignment of error in her cross-appeal.
The trial court erred in ordering that there is
some circumstance where [Appellee] must
acknowledge receipt of the funds in writing
when there is no duty of plaintiff to do so and
when the trial court otherwise had no
authority to issue such order.
Appellant argues in his assignment of error
that the trial court erred by not including all of the
prior provisions in the amended judgment entry.
However, a review of the amended judgment entry
does not show that the prior order was vacated. To
the contrary, the language used in the amended
order indicates that it was still in effect as implied by
the trial court's final finding that the dismissal of the
case with prejudice "remains in effect". Additionally,
this Court in its prior opinion affirmed the dismissal
of the case and the underlying agreement. The only
portions of the judgment which were reversed were
the requirement of a release and the forfeiture
App. 23

provision of the settlement check. This court did not
vacate the prior order either, instead merely ordering
the trial court to issue an order complying with the
Court's ruling. The trial court did what was
requested. As the underlying order was not vacated,
the trial court did not need to repeat everything that
was already included.2 For this reason the
assignment of error is overruled.
In her cross-appeal, Appellee claims that the
trial court erred by requiring her to sign a receipt
acknowledging she received the check when she
picks it up. She appears to argue that this is a
breach of the settlement agreement because she
never agreed to do so. This Court initially notes that
Appellee was required to sign a receipt, not a release.
A receipt is defined as "a written acknowledgment
that a specified article, sum of money, or delivery of
merchandise has been received." The American
Heritage Dictionary 1032 (2d College Ed. 1985).
Unlike a release, a receipt does not concede any legal
rights, it merely shows that one has received
something. Attorneys commonly will require a signed
acknowledgment when a person receives something
of value from the attorney on behalf of a client. "A
'material breach of contract' is a failure to do
something that is so fundamental to a contract that
the failure to perform defeats the essential purpose
of the contract or makes it impossible for the other
2 Appellant agreed at oral argument that if the underlying
order was still enforceable, the assignment of error was
resolved.

App. 24

party to perform." Marion Family YMCA v. Hensel,
178 Ohio App.3d 140, 2008 -Ohio- 4413, t 7, 897
N.E.2d 184 (3d Dist.). The requirement that one sign
a receipt acknowledging that he or she was given a
check for a large sum of money does not qualify as
defeating the essential purpose of the agreement and
is thus not a material change to the agreement.
Thus, there is no prejudice from the addition of a
requirement that a receipt be signed. Appellee's
assignment of error raised on cross-appeal is
overruled.
Accordingly, for the aforementioned reasons, it
is the order of this Court that the Judgment Entry of
the Court of Common Pleas of Hancock County is
affirmed. Costs are assessed equally between
Appellant and Appellee for which judgment is hereby
rendered. This cause is remanded to the trial court
for execution of the judgment for costs.
It is further ordered that the Clerk of this
Court certify a copy of this judgment entry to the
trial court as the mandate prescribed by App.R. 27,
and serve a copy of this judgment entry on each
party to the proceedings and note the date of service
in the docket as prescribed by App.R. 30.
s/ John R. Williamowski
JUDGE
s/ Stephen R. Shaw
JUDGE
s/ Vernon L. Preston
JUDGE
App. 25

DATED: SEPTEMBER 3, 2019
/his

App. 26

Appendix C

FILED
MAY 15 2019
CLERK OF COURT
SUPREME COURT OF OHIO

THE SUPREME COURT OF OHIO
Susan Pearsall,
v.

Thomas C. Guernsey, DDS, et al.
Case No. 2019-0304
Date of entry: May 15, 2019
ENTRY
it it it

Upon consideration of the jurisdictional
memoranda filed in this case, the court declines to
accept jurisdiction of the appeal pursuant to
S.Ct.Prac.R. 7.08(B)(4).
App. 27

(Hancock County Court of Appeals! No. 5-1814)
s/ Maureen O'Connor
Maureen O'Connor
Chief Justice
The Official Case Announcement can be found at
http ://ww w. supremecourt. ohio. gov/ROD/docs/

App. 28

Appendix D

FILED
JUL 23 2019
CLERK OF COURT
SUPREME COURT OF OHIO

THE SUPREME COURT OF OHIO
Susan Pearsall,
v.
Thomas C. Guernsey, DDS, et al.
Case No. 2019-0304
Date of entry: July 23, 2019
RECONSIDERATION ENTRY
•k -k k

It is ordered by the court that the motion for
reconsideration in this case is denied.
(Hancock County Court of Appeals; No. 5-1814)
App. 29

s/Maureen O'Connor
Maureen O'Connor
Chief Justice
The Official Case Announcement can be found at
httpV/www.supremecourt.ohio.gov/ROD/docs/

App. 30

